   May 9, 2005




Infrastructure and Environment

Defense Legal Services Agency Data
Call Submissions and Internal Control
Processes for Base Realignment and
Closure 2005
(D-2005-068)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
                                INSPECTOR GENERAL
                              DEPARTMENT OF DEFENSE
                               400 ARMY NAVY DRIVE
                          ARLINGTON, VIRGINIA 22202-4704



                                                                                      May 9,2005
MEMORANDUM FOR DIRECTOR, DEFENSE LEGAL SERVICES AGENY
SUBJECT: Report on Defense Legal Services Agency Data Call Submissions and
         Internal Control Processes for Base Realignment and Closure 2005 (Report                        .
         NO. D-2005-068)

        We are providing this report for your information and use. We performed this
audit in response to a request from the Under Secretary of Defense for Acquisition,
Technology, and Logistics. We considered management's comments on a draft of this
report when preparing the final report. The complete text of the comments is in the
Management Comments section of the report.
       We appreciate the courtesies extended to the staff. Questions should be directed
to me at (703) 604-8907 (DSN 664-8907). See Appendix B for the report distribution.
The audit team members are listed inside the back cover.
                                   By direction of the Deputy Inspector General for Auditing:




                                            Robert F. Prinzbach I1
                                              Program Director
                                        Readiness and Logistics Support




                                        Special Warning
BRAC-related reports are exempt from release under section 552(b)(5), title 5, United States Code,
"Freedom of Information Act," and DoD Directive 5400.7, "DoD Freedom of Information Act
Program," September 1998 (Exemption Number 5, paragraph C3.2.1.5).
After May 16, 2005, when the Secretary of Defense publicly releases the recommendations for closure or
realignment, this report is no longer exempt>om release.




                             FOR OFFICIAL USE ONLY
 BRAC-related reports are exemptfrom release under section 552(b)(5), title 5, United States
Code, "Freedom of Information Act," and DoD Directive 5400.7, "DoD Freedom of Information
        Act Program, " September 1998 (Exemption Number 5, paragraph C3.2.1.5).
  Additional Copies

  The Department of Defense Office of the Deputy Inspector General for Auditing,
  Readiness and Logistics Support prepared this report. If you have questions or
  would like to obtain additional copies of the draft report, contact Mr. Robert F.
  Prinzbach II at (703) 604-8907 (DSN 664-8907).

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                     Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704




Acronyms

BRAC                Base Realignment and Closure
COBRA               Cost of Base Realignment Actions
DoD OIG             Department of Defense Office of Inspector General
DOHA                Defense Office of Hearings and Appeals
DLSA                Defense Legal Services Agency
HSA                 Headquarters and Support Activities
ICP                 Internal Control Plan
JCSG                Joint Cross-Service Group
JPAT 7              Joint Process Action Team Criterion Number 7
OSD                 Office of the Secretary of Defense
               Department of Defense Office of Inspector General
Report No. D-2005-068                                                          May 9, 2005
   (Project No. D2004-D000LH-0071.000)

           Defense Legal Services Agency Data Call Submissions
                  and Internal Control Processes for Base
                      Realignment and Closure 2005

                                 Executive Summary

Who Should Read This Report and Why? Office of the Secretary of Defense
personnel responsible for deciding the realignment or closure of military installations
based on the Base Realignment and Closure (BRAC) data calls and Defense Legal
Services Agency (DLSA) management personnel should read this report. The report
discusses the adequacy, completeness, and integrity of the data provided by DLSA to
assist the Secretary of Defense in BRAC 2005 recommendations.

Background. BRAC 2005 is the formal process outlined in Public Law 101-510,
“Defense Base Closure and Realignment Act of 1990,” as amended, under which the
Secretary of Defense may realign or close military installations inside the United States
and its territories. As part of BRAC 2005, the Under Secretary of Defense for
Acquisition, Technology, and Logistics issued “Transformation Through Base
Realignment and Closure (BRAC 2005) Policy Memorandum One—Policy,
Responsibilities, and Procedures,” April 16, 2003, which states that the Department of
Defense Office of Inspector General would review the accuracy of BRAC data and the
certification process.

The BRAC 2005 process was mandated for the United States and its territories and was
divided into the following data calls: capacity analysis, supplemental capacity, military
value, Cost of Base Realignment Actions, Joint Process Action Team Criterion
Number 7, and scenario specific. The supplemental capacity, military value, Cost of
Base Realignment Actions, and Joint Process Action Team Criterion Number 7 data calls
were collectively known as the second data call. This report summarizes issues related to
the entire DLSA BRAC 2005 process as of January 2005. DLSA, headquartered in the
Pentagon with four operating locations, provides legal advice and services for Defense
agencies, DoD field activities, and other assigned organizations.

Results. We evaluated the validity, integrity, and supporting documentation of
BRAC 2005 data and DLSA compliance with the applicable internal control plans. After
corrections were made as a result of our site visits, DLSA provided BRAC 2005 data that
were generally supported, complete, and accurate, and the data collection processes that
DLSA used generally complied with the applicable internal control plans. In addition,
the DLSA internal control plan properly incorporated and supplemented the Office of the
Secretary of Defense internal control plan. DLSA had a noncompliance with the internal
control plan in that some of the documents used to support responses to the capacity
analysis data call questions were not properly marked; however, DLSA personnel
immediately corrected the problem. We also identified two other immaterial
noncompliances with the internal control plans, but they did not affect the integrity of the
data that DLSA provided for the BRAC 2005 analysis. (See the Finding section of the
report for details.)




                                          ii
Table of Contents

Executive Summary                                                         i

Background                                                               1

Objectives                                                               3

Finding
     Defense Legal Services Agency BRAC 2005 Data Call Submissions and
          Internal Control Processes                                     4

Appendixes
     A. Scope and Methodology                                             8
          Management Control Program Review                              10
          Prior Coverage                                                 11
     B. Report Distribution                                              12


Management Comments
     Defense Legal Services Agency Comments                              13
Background
    Base Realignment and Closure 2005. Public Law 101-510, “Defense Base
    Closure and Realignment Act of 1990,” as amended, establishes the procedures
    under which the Secretary of Defense may realign or close military installations
    inside the United States and its territories. The law authorizes the establishment
    of an independent Commission to review the Secretary of Defense
    recommendations for realigning and closing military installations. The Secretary
    of Defense established and chartered the Infrastructure Executive Council and the
    Infrastructure Steering Group as the Base Realignment and Closure (BRAC) 2005
    deliberative bodies responsible for leadership, direction, and guidance. The
    Secretary of Defense must submit BRAC recommendations to the independent
    Commission by May 16, 2005.

    Joint Cross-Service Groups. A primary objective of BRAC 2005, in addition to
    realigning base structure, is to examine and implement opportunities for greater
    joint activity. The Office of the Secretary of Defense (OSD) established seven
    Joint Cross-Service Groups (JCSG)—Education and Training, Headquarters and
    Support Activities (HSA), Industrial, Intelligence, Medical, Supply and Storage,
    and Technical—to address issues that affect common business-oriented support
    functions, examine functions in the context of facilities, and develop realignment
    and closure recommendations based on force structure plans of the Armed Forces
    and on selection criteria. To analyze the issues, each JCSG developed data call
    questions to obtain information about the functions that it reviewed.

    BRAC Data Calls. The BRAC 2005 data collection process, mandated for the
    United States and its territories, was divided into the following data calls:
    capacity analysis, supplemental capacity, military value, Cost of Base
    Realignment Actions (COBRA), Joint Process Action Team Criterion Number 7
    (JPAT 7), and scenario specific. The supplemental capacity, military value,
    COBRA, and JPAT 7 data calls were collectively known as the second data call.
    The Services, Defense agencies, and Defense-Wide Organizations used either
    automated data collection tools or a manual process to collect data call responses.
    Each data call had a specific purpose as follows.
           •   The capacity analysis data call gathered data on infrastructure, current
               workload, surge requirements, and maximum capacity.

           •   The supplemental capacity data call clarified inconsistent data
               gathered during the initial capacity analysis data call.

           •   The military value data call gathered data on mission requirements,
               land and facilities, mobilization and contingency, and cost and
               personnel.

           •   The COBRA data call gathered data to develop costs, savings, and
               payback (formerly known as return on investment) of proposed
               realignment or closure actions.




                                         1
                    •    The JPAT 7 data call gathered data that the Services and JCSGs could
                         use to assess the community’s ability to support additional forces,
                         missions, and personnel associated with individual scenarios. 1

                    •    The scenario specific data calls gathered data related to scenarios for
                         realignment or closure. 2

           Internal Control Plans. Before the BRAC data calls were released to the
           Services, Defense agencies, and Defense-Wide organizations, OSD prepared the
           OSD internal control plan (ICP), which was issued in the Under Secretary of
           Defense for Acquisition, Technology, and Logistics memorandum,
           “Transformation Through Base Realignment and Closure (BRAC 2005) Policy
           Memorandum One—Policy, Responsibilities, and Procedures” (Policy
           Memorandum One), April 16, 2003. The OSD ICP requires the Services, Defense
           agencies, and Defense-Wide organizations to prepare ICPs that incorporate and
           supplement the OSD ICP. To comply with that requirement, the Defense Legal
           Services Agency (DLSA) prepared an ICP, “Defense Legal Services Agency
           (DLSA) Internal Control Plan (ICP) for 2005 Base Realignment and Closure
           (BRAC) Process,” December 19, 2003.

           Inspector General Responsibility. Policy Memorandum One requires the
           Department of Defense Office of Inspector General (DoD OIG) to provide ICP
           development and implementation advice, and review the accuracy of BRAC data
           and the certification process. In addition, Policy Memorandum One requires DoD
           OIG personnel to assist the JCSGs and DoD Components as needed. This report
           summarizes issues related to the DLSA BRAC 2005 process.

           DLSA. DLSA, headquartered in the Pentagon, provides legal advice and services
           for Defense agencies, DoD field activities, and other assigned organizations.
           DLSA has four operating locations: Defense Office of Hearings and Appeals
           (DOHA), Arlington, Virginia; DOHA Boston Hearing Office, Natick,
           Massachusetts; DOHA Personnel Security Division, Columbus, Ohio; and DOHA
           Western Hearing Office, Woodland Hills, California. DLSA responsibilities
           include providing technical support and assistance for developing the DoD
           Legislative Program. Additional responsibilities include coordinating DoD policy
           for standards of conduct and administering the Standards of Conduct Program for
           OSD and other assigned organizations, managing DoD legislative comment
           programs, and administering the Security Clearance Review Program.




1
    A scenario is a description of one or more potential closure or realignment actions identified for formal
    analysis by either a JCSG or a Military Department.
2
    The scenario specific data calls were provided by the HSA JCSG for the DOHA Virginia organization to
    determine the estimated cost of relocating it to three different military installations.



                                                        2
Objectives
    The overall objective of the audit was to evaluate the validity, integrity, and
    supporting documentation of data that DLSA collected and submitted for the
    BRAC 2005 process. In addition, we evaluated whether DLSA complied with the
    OSD and DLSA ICPs. This report is one in a series on data call submissions and
    internal control processes for BRAC 2005. See Appendix A for a discussion of
    the scope and methodology, the review of management controls, and prior
    coverage related to the audit objectives.




                                       3
           Defense Legal Services Agency BRAC
           2005 Data Call Submissions and Internal
           Control Processes
           DLSA provided BRAC 2005 data that were generally supported,
           complete, and accurate after corrections were made as a result of our site
           visit, and the DLSA data collection process generally complied with the
           OSD and DLSA ICPs. In addition, the DLSA ICP properly incorporated
           and supplemented the OSD ICP. We identified a noncompliance with the
           ICPs in that some of the documents used to support responses to the
           capacity analysis data call questions were not properly marked. DLSA
           personnel immediately corrected the problem. We also identified two
           other immaterial noncompliances with the DLSA ICP that did not affect
           the reliability and integrity of the DLSA data in the BRAC 2005 analysis.



DLSA BRAC 2005 Data Call Submissions
    After corrections were made, the DLSA BRAC 2005 data reported were generally
    supported, complete, and accurate. We evaluated the validity and integrity of
    DLSA supporting documentation. Specifically, we compared responses with
    supporting documentation and reviewed “Not Applicable” (N/A) responses to
    determine whether the responses were reasonable. DLSA and its four operating
    locations answered 35 questions and 3 scenario specific data calls: 8 of
    752 capacity analysis data call questions, 27 of 40 second data call questions, and
    the questions in 3 scenario specific data calls. DLSA used Microsoft Word to
    summarize collected data for all of the data calls. We did not verify that the
    DLSA responses were in the OSD Database for the capacity analysis and second
    data calls.

    Capacity Analysis Data Call. DLSA provided reasonable responses to the
    capacity analysis data call questions and had reasonable supporting
    documentation for those responses after corrections were made. DLSA received
    752 questions and determined that only 8 questions applied to DLSA
    headquarters and its 4 operating locations. Because DLSA headquarters was the
    repository for all DLSA BRAC data, we evaluated the responses and support
    provided by all locations for the eight questions that were answered with
    something other than N/A at DLSA headquarters. DLSA supporting
    documentation was generally adequate for the responses to all eight questions;
    two certified responses had math errors, which were immediately corrected upon
    notification. In addition, we reviewed the 744 questions that DLSA officials had
    concluded did not apply and agreed with the DLSA conclusion.

    Second Data Call. After corrections were made, DLSA provided reasonable
    responses to the second data call questions and adequate supporting
    documentation for those responses, with the exception of JPAT 7 question
    numbers 1405 and 1406. For the second data call, DLSA received
    40 targeted questions, but determined that only 27 of the questions applied to
    DLSA. DLSA headquarters further targeted the 27 questions to DLSA


                                         4
           headquarters and the 4 operating locations⎯5 military value questions,
           2 COBRA questions, and 20 JPAT 7 questions. See Appendix A for information
           on which DLSA offices answered which questions. We evaluated the responses
           and support for all 27 questions and for all DLSA locations at DLSA headquarters
           and identified responses with inadequate support. In response to our audit work,
           DLSA provided additional supporting documentation and corrected all issues
           except for question numbers 1405 and 1406, which required additional supporting
           documentation from DOHA Virginia, and HSA JCSG military value question
           numbers 1907 3 and 1908 4 because we were unable to validate the steps taken to
           generate those responses. We verified and concurred with the corrections. In
           addition, we reviewed the 13 questions that DLSA officials concluded did not
           apply to DLSA and agreed with the conclusion.

           Scenario Specific Data Call. DLSA provided reasonable certified responses to
           three scenario specific data calls as of January 2005. DLSA received four
           scenario specific data calls (numbers HSA-0053, HSA-0106, HSA-0098, and
           HSA-0099). Subsequently, the HSA JCSG deleted scenario specific data call
           HSA-0106. As a result, we determined that no further action was required on
           behalf of DLSA for scenario specific data call HSA-0106. All three scenario
           reviews were from HSA JCSG. DLSA answered the questions in the three
           scenario specific data calls with something other than N/A.


Internal Control Processes
           The DLSA data collection processes generally complied with the OSD and DLSA
           ICPs. We reviewed the completeness of the DLSA ICP and determined that it
           properly incorporated and supplemented the OSD ICP. In addition, we reviewed
           DLSA compliance with the DLSA ICP to determine whether the data collection
           process complied with the DLSA ICP. We determined whether DLSA personnel
           completed nondisclosure agreements and properly collected, marked,
           safeguarded, and maintained BRAC data. Specifically, we reviewed the
           completeness of BRAC documentation, whether BRAC information was secured
           in locked containers, and whether BRAC data were marked with “Deliberative
           Document-For Discussion Purposes Only-Do Not Release Under FOIA.”
           OSD ICP. OSD defined the internal control process for BRAC 2005 in the OSD
           ICP, which provides broad internal control mechanisms designed to ensure the
           accuracy, completeness, and integrity of information used to support BRAC
           actions. The OSD ICP describes broad lines of authority and responsibilities;
           requires that BRAC analysis and recommendations be based on accurate,
           complete, and certified data; and requires that the process be properly
           documented and auditable. The OSD ICP requires any DoD Component
           participating in BRAC to develop and implement an ICP to ensure the accuracy of
           data collection and analysis.



3
    The question asked for the number of meetings between an organization’s senior officials, including flag
    officers, and senior officials from another organization located in the Washington, D.C., area.
4
    The question asked for the number of meetings between an organization’s senior officials, including flag
    officers, and members of Congress or their staffs.



                                                       5
DLSA ICP. DLSA headquarters prepared the DLSA ICP, which refines the
requirements established in the OSD ICP and provides guidance on DLSA
responsibilities. The DLSA ICP provides guidance on the BRAC 2005
responsibilities of DLSA offices, organizational and documentation control
mechanisms to safeguard DLSA BRAC information, and guidance on interactions
with community groups and other stakeholders. The DLSA specific
documentation requirements, review procedures, and certification procedures are
included in the DLSA ICP as Appendix A, “Documentation Requirements for
DLSA Base Realignment and Closure Internal Control Plan Implementation.”

Completeness of ICPs. The DLSA ICP properly incorporated and supplemented
the OSD ICP. The DLSA ICP established DLSA responsibilities and outlined
management control mechanisms to provide accountability and to safeguard
DLSA BRAC information. In addition, the DLSA ICP identified required
documentation to justify changes made to data and information after it had been
certified and sent to the OSD BRAC Office. Both ICPs included direction on
completing nondisclosure agreements and on collecting, marking, safeguarding,
and maintaining BRAC data.

Compliance With ICPs. DLSA did not fully comply with the ICPs; however,
the identified noncompliances did not affect the integrity of the DLSA data in
BRAC 2005 analysis. DLSA had a noncompliance with the OSD and DLSA
ICPs in that DLSA had not properly marked some of the BRAC-related
documents used to support answers to capacity analysis data call questions.
DLSA resolved the noncompliance by properly marking the documents
immediately upon being notified of the noncompliance.

In addition, DLSA had two other immaterial noncompliances with the DLSA ICP.
Specifically, DLSA did not maintain the following logs.

       •   A BRAC data log because BRAC data did not leave the DLSA
           headquarters.

       •   A BRAC copy log because copies of BRAC data were not provided to
           anyone other than DoD OIG personnel.

We did not request DLSA to correct those two noncompliances. Because the
DLSA responses and supporting documentation were reasonable and because
DLSA stored all BRAC data in a secure container (a safe) accessible only by the
trusted agent and the Attorney Manager, we considered the noncompliances to be
immaterial and they will not affect the integrity of DLSA BRAC data submitted
to OSD.




                                    6
Conclusion
    DLSA reported BRAC 2005 data that were generally supported, complete, and
    accurate after corrections were made, and the data collection process that DLSA
    used generally complied with the ICPs. We identified a noncompliance with the
    ICPs in that some of the documents used to support responses to the capacity
    analysis data call questions were not properly marked. DLSA personnel
    immediately corrected the problem. We also identified two other immaterial
    noncompliances with the DLSA ICP that did not affect the reliability and integrity
    of the DLSA data in the BRAC 2005 analysis.




                                        7
Appendix A. Scope and Methodology
           We evaluated the validity, integrity, and supporting documentation of DLSA
           BRAC 2005 data. The evaluation included comparing responses with supporting
           documentation and reviewing N/A responses to determine whether the responses
           were reasonable. Questions had either an answer or an N/A response; an N/A
           response was for questions determined not to apply to DLSA.

           We evaluated the data collection process to determine whether DLSA followed
           the OSD ICP guidance to develop an ICP, maintained adequate documentation to
           support the data collection process, and established adequate internal control
           procedures to ensure that data call responses were complete and accurate. We
           determined whether the DLSA ICP properly incorporated and supplemented the
           requirements of the OSD ICP and reviewed DLSA compliance with the ICPs. We
           evaluated DLSA data collection procedures at DLSA headquarters because we
           performed audit work only at DLSA headquarters; we did not perform any audit
           work at the four DLSA operating locations. Our evaluation included reviewing
           the completion of nondisclosure agreements and the collection, marking,
           safeguarding, and maintenance of BRAC data. In addition, we interviewed the
           Attorney Manager and the administrative specialist who helped prepare the
           responses. The Attorney Manager reviewed and certified the official response
           from DLSA to the capacity analysis data call, second data call, and scenario
           specific data call. We reviewed documentation dated from December 1989
           through January 2005. We did not verify that the responses made it into the OSD
           Database.

           As of February 2005, we had not conducted any revalidations of the capacity
           analysis or second data calls. After our review, JPAT 7 questions 1418 and 1419
           were replaced with 1420 and 1421, which were validated.

           Capacity Analysis Data Call. DLSA received 752 capacity analysis data call
           questions. DLSA officials determined that only 8 of the 752 questions applied to
           them and should be answered by at least one DLSA office with something other
           than N/A. We reviewed the 752 questions and also concluded that only 8 applied
           to DLSA. We reviewed the responses to question numbers 311, 460 through 462,
           466, 468, 471, and 479. DLSA headquarters answered question numbers 460,
           461, 468, 471, and 479. DOHAs California, Massachusetts, and Ohio answered
           question number 311. DOHA Virginia answered question numbers 462, 466, and
           471.
           Second Data Call. DLSA received 40 questions for the second data call. DLSA
           received 12 military value questions from the HSA JCSG (1905 and1907 through
           1917), 8 COBRA 1 questions (1500 through 1507), and 20 JPAT 7 2 questions
           (1400 through 1417 and 1420 through 1421). DLSA answered 27 of the
           questions with something other than N/A. We reviewed the answers for all
           27 questions. We also concluded that N/A was the appropriate response for the
           other 13 questions. The following table lists the responses that we reviewed.


1
    COBRA questions were to be answered by stand-alone or host activities, which included leased facilities.
2
    JPAT 7 questions were to be answered by stand-alone or host activities, which included leased facilities.



                                                       8
                     Second Data Call Responses Reviewed

                                           Question Number
  DLSA Location                Answered                   Not Applicable
DLSA Headquarters,     1505 and 1907-1911          1400-1417, 1420, 1421,
Pentagon                                           1500-1504, 1506, 1507, 1905,
                                                   and 1912-1917
DOHA California        1400-1417, 1420, 1421,      1500, 1502-1504, 1506, 1507,
                       1501, 1505, 1910, and       1905, 1907-1909, and
                       1911                        1912-1917

DOHA                   1501, 1505, 1910, and         1400-1417, 1420, 1421, 1500,
Massachusetts          1911                          1502-1504, 1506, 1507, 1905,
                                                     1907-1909, and 1912-1917
DOHA Ohio              1400-1417, 1420, 1421,        1500, 1502-1504, 1506, 1507,
                       1501, 1505, 1910, and         1905, 1907-1909, and
                       1911                          1912-1917

DOHA Virginia          1400-1417, 1420, 1421,    1500, 1502-1504, 1506, 1507,
                       1501, 1505, and 1909-1911 1905, 1907, 1908, and
                                                 1912-1917


The JPAT 7 group replaced question numbers 1418 and 1419 with question
numbers 1420 and 1421 because organizations were encountering problems
responding to question numbers 1418 and 1419.

We issued two site memorandums to summarize the results of our review of the
8 capacity analysis data call questions and the 27 second data call questions.
However, for the second data call, we did not verify the accuracy of supporting
documentation for HSA JCSG military value question numbers 1907 and 1908
because DoD OIG determined that the questions required supporting
documentation that could not be verified.

Scenario Specific Data Call. As of January 2005, DLSA received four scenario
specific data calls (numbers HSA-0053, HSA-0106, HSA-0098, and HSA-0099).
DLSA answered three of the data calls (numbers HSA-0053, HSA-0098, and
HSA-0099). All three scenarios were from the HSA JCSG. We reviewed the
responses to the questions from the three scenario specific data calls.

The scenario specific data call HSA-0106 was deleted and the alternative scenario
specific data call HSA-0053 was answered.

We performed this audit from January 2004 through April 2005 in accordance
with generally accepted government auditing standards.

Reliability of Computer-Processed Data. We did not test the accuracy of the
computer-processed data used to support answers to data call questions because


                                    9
    of time constraints. Potential inaccuracies in the data could affect the results.
    However, the BRAC data were certified as accurate and complete to the best of
    the certifier’s knowledge and belief. We did not review the data collection tools
    used (Microsoft Word and the Data Gathering Tool).

    Government Accountability Office High-Risk Areas. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the Managing Federal Real Property and DoD Support
    Infrastructure Management high-risk areas.



Management Control Program Review
    We did not review the DLSA management control program because its provisions
    did not apply to the one-time data collection process. However, we evaluated the
    DLSA management controls for preparing, submitting, documenting, and
    safeguarding information associated with the BRAC 2005 data calls.
    Specifically, we reviewed procedures that DLSA used to develop, submit, and
    document its data call responses. In addition, we reviewed the controls
    implemented to certify and maintain BRAC documentation in accordance with
    applicable ICPs. DLSA properly incorporated the OSD ICP into the DLSA ICP,
    which included direction on completing nondisclosure agreements and collecting,
    marking, safeguarding, and maintaining BRAC data. Management controls were
    adequate as they applied to the audit objective (see the Finding section for
    additional details). The data collection processes that DLSA used for the capacity
    analysis data call, the second data call, and the scenario specific data call
    complied with applicable ICPs. We identified a control weakness with the
    marking of some of the BRAC-related documents used to support answers to
    capacity analysis data call questions. The document classification header and
    footer were absent from the BRAC-related documents. DLSA management
    corrected the control weakness during the audit by correctly marking all BRAC
    2005 documents; therefore, we consider the identified weakness to be immaterial,
    and it will not affect the integrity of the BRAC data submitted to the OSD BRAC
    Office. We identified two other immaterial control weaknesses with maintaining
    a BRAC data log and a BRAC copy log. We did not request DLSA to correct
    those because the DLSA responses and supporting documentation were
    reasonable, and BRAC data were stored in a secure container only accessible by
    the trusted agent and the Attorney Manager. We considered the noncompliances
    to be immaterial, and they will not affect the integrity of the BRAC data
    submitted to the OSD BRAC Office.




                                        10
Prior Coverage
    During the last 5 years, the DoD Inspector General has issued two site
    memorandums discussing the DLSA BRAC 2005 data call submissions and
    internal control processes.

    Site Memorandums

    DoD IG Memorandum, “Audit on the Second Data Call Submission From
    Defense Legal Services Agency for Base Realignment and Closure 2005,”
    November 23, 2004

    DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
    from Defense Legal Services Agency for Base Realignment and Closure 2005,”
    April 20, 2004




                                     11
Appendix B. Report Distribution

Office of the Secretary of Defense
Director, Base Realignment and Closure (Installations and Environment)

Other Defense Organizations
Attorney Manager, Defense Legal Services Agency

Non-Defense Federal Organization
Government Accountability Office ∗




∗
    Only Government Accountability Office personnel involved in the BRAC process are to receive the
    report.




                                                    12
Defense Legal Services Agency Comments




                     13
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Logistics Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Robert F. Prinzbach II
Catherine M. Schneiter
Marc E. Avers
Travis R. Schenck
Shanika S. Knight
Beth N. Sakshaug
Jennifer L. Trieschman
Jacqueline N. Pugh
Meredith H. Johnson
